                             U.S. DEPARTMENT OF ENERGY
                            OFFICE OF INSPECTOR GENERAL




                        REPORT ON MATTERS IDENTIFIED AT THE
                            RICHLAND OPERATIONS OFFICE
                       DURING THE AUDIT OF THE DEPARTMENTmS
                   CONSOLIDATED STATEMENT OF FINANCIAL POSITION
                             AS OF SEPTEMBER 30, 1995




      The Office of Inspector General wants to make the distribution of its
    reports as customer friendly and cost effective as possible. Therefore,
    this report will be available electronically through the Internet five to
      seven days after publication at the following alternative addresses:

                     Department of Energy Headquarters Gopher
                                 gopher.hr.doe.gov

                  Department of Energy Headquarters Anonymous FTP
                                vml.hqadmin.doe.gov

          U.S. Department of Energy Human Resources and Administration
                                    Home Page
                       http://www.hr.doe.gov/refshelf.html


     Your comments would be appreciated and can be provided on the Customer
                      Response Form attached to the report.


                       This report can be obtained from the
                             U.S. Department of Energy
                  Office of Scientific and Technical Information
                                    P.O. Box 62
                            Oak Ridge, Tennessee 37831




Report Number:   WR-FS-96-01         Western Regional Audit Office
Date of Issue:   March 18, 1996      Albuquerque, New Mexico 87185

                     U.S. DEPARTMENT OF ENERGY
                    OFFICE OF INSPECTOR GENERAL
                     REPORT ON MATTERS IDENTIFIED AT THE

                         RICHLAND OPERATIONS OFFICE

                    DURING THE AUDIT OF THE DEPARTMENTmS

             CONSOLIDATED STATEMENT OF FINANCIAL POSITION

                          AS OF SEPTEMBER 30, 1995


Report Number: WR-FS-96-01                Western Regional Audit Office
Date of Issue: March 18, 1996             Albuquerque, New Mexico 87185

                  REPORT ON MATTERS IDENTIFIED AT THE
                      RICHLAND OPERATIONS OFFICE
                 DURING THE AUDIT OF THE DEPARTMENTmS
             CONSOLIDATED STATEMENT OF FINANCIAL POSITION
                       AS OF SEPTEMBER 30, 1995



                              TABLE OF CONTENTS



                                                                    Page

               SUMMARY........................................        1

PART I   -     APPROACH AND OVERVIEW..........................        3

               Introduction...................................        3

               Scope and Methodology..........................        3

               Observations...................................        4

PART II -      AUDIT RESULTS..................................        6

               Westinghouse Hanford Company...................        6

               1.     Plant and Capital Equipment................     6

               2.     Surplus Assets.............................    10

               Other Matters..................................       12
                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES
                  WESTERN REGIONAL AUDIT OFFICE


               REPORT ON MATTERS IDENTIFIED AT THE
                   RICHLAND OPERATIONS OFFICE
              DURING THE AUDIT OF THE DEPARTMENTmS
          CONSOLIDATED STATEMENT OF FINANCIAL POSITION
                    AS OF SEPTEMBER 30, 1995


Audit Report Number: WR-FS-96-01


                             SUMMARY


     The Government Management Reform Act of 1994 requires that
the Department of Energy submit audited financial statements to
the Office of Management and Budget annually, beginning with the
statements as of September 30, 1996. In preparing for this
effort, we planned to audit the Departmentms Consolidated
Statement of Financial Position as of September 30, 1995, to
determine whether it presented fairly, in all material respects,
the Departmentms financial position. We conducted a portion of
the Departmentwide audit at the Richland Operations Office and
its management and operating contractor, Westinghouse Hanford
Company.

     The audit disclosed errors, as of September 30, 1995, in
three Department accounts maintained by Westinghouse:
Construction Work-in-Progress; Completed Property, Plant and
Equipment; and Accumulated Depreciation. These errors occurred
because Westinghouse had not removed abandoned projects from the
Construction Work-in-Progress account and surplus and retired
facilities from the Completed Property, Plant and Equipment
account. In addition, Westinghouse had not included a
telecommunication system, acquired with a capital lease, in the
Completed Property, Plant and Equipment account. Westinghouse
also had other internal control weaknesses that impacted the
account balances.

     We recommended that adjustments be made to the accounts and
improvements be made to the internal controls. Management agreed
to remove a retired building from the property account and agreed
to capitalize the lease. However, Richland stated that the
close-out process was not complete for the abandoned projects and
that Headquarters needed to provide additional information on the
removal of surplus facilities before Richland would take any
action.
                                        ______(Signed)_____________
                                        Office of Inspector General
                               PART I

                        APPROACH AND OVERVIEW

INTRODUCTION

     The Government Management Reform Act of 1994 significantly
expands the provisions of the Chief Financial Officers Act of
1990 and requires that audited financial statements covering all
accounts and associated activities of the Department be submitted
to the Office of Management and Budget (OMB) annually. The first
submission involves financial statements as of, and for the year
ended, September 30, 1996. In preparing for this effort, we
planned to audit the Departmentms Consolidated Statement of
Financial Position as of September 30, 1995, by examining
internal controls, assessing compliance with laws and
regulations, and testing selected account balances at various
Department facilities.

     The objective of the Departmentwide audit was to determine
whether the Departmentms Consolidated Statement of Financial
Position as of September 30, 1995, presented fairly, in all
material respects, its financial position. Departmentwide issues
are addressed in Audit Report No. IG-FS-96-01.

     The purpose of this report is to inform Richland of certain
matters that came to the attention of the Office of Inspector
General during the audit at Richland and Westinghouse, one of its
managing and operating contractors. Westinghouse manages the
Hanford Site and maintains an accounting system that is
integrated into the Departmentms financial system. Richland is
responsible for the account balances entered into the
Departmentms core accounting system.

SCOPE AND METHODOLOGY

     The audit was conducted from June through December 1995 at
Richland, Washington. As part of this effort, we obtained an
understanding of the internal control structure to plan the
audit, performed tests of control procedures, assessed compliance
with laws and regulations, and tested the balances of the
following accounts as necessary to achieve the Departmentwide
audit objectives: Construction Work-in-Progress; Completed
Property, Plant and Equipment; and Accumulated Depreciation.

        The audit was performed in accordance with generally
accepted Government auditing standards for financial audits.
Since we relied on computer-generated data, we evaluated the
general control environment of certain financial systems and
evaluated the reliability of the data on a test basis.

        Because the audit was limited, it would   not necessarily
disclose all of the internal control weaknesses   that exist.
Furthermore, because of inherent limitations in   any internal
control structure, errors or irregularities may   nevertheless
occur and not be detected. The issues addressed in this report
represent our observations of activities through the end of
fieldwork on December 29, 1995. Projection of any evaluation of
the structure to future periods is subject to the risk that
procedures may become inadequate because of changes in conditions
or that the effectiveness of the design and operation of policies
and procedures may deteriorate.

     In addition to the audit work conducted by the Office of
Inspector General, Westinghouse Internal Audit personnel reviewed
Accounts Payable and Accrued Expenses at Westinghouse and an
independent public accounting firm reviewed Nuclear Material
Inventories and Environmental, Pension, and Other Postretirement
Liabilities at Richland. The results of the Internal Audit
efforts will be reported separately through their normal
reporting process. All findings generated as a result of reviews
involving Richland and Westinghouse activities were considered in
preparing the Audit Report on the Departmentms Consolidated
Statement of Financial Position as of September 30, 1995 (Audit
Report No. IG-FS-96-01) or in the Management Report referred to
in that report.

     An exit conference was held with Richland management on
February 6, 1996.

OBSERVATIONS

     We observed that Westinghouse had not removed abandoned
projects and retired or surplus facilities from its accounts.
Three abandoned projects totaling $337.3 million remained in
Westinghousems Construction Work-in-Progress account. In
addition, Westinghouse had not removed a building, with a net
value of $12.4 million, from the Completed Property, Plant and
Equipment and Accumulated Depreciation accounts when the Fast
Flux Test Facility was retired. Richland did not direct
Westinghouse to write off or write down other surplus facilities,
with an undetermined value, as requested by Headquarters.

     In addition, Westinghouse had not capitalized a lease valued
at $37.2 million. Although Richland disclosed the capital lease
in the footnotes to its consolidated financial statements,
Westinghouse had not capitalized this integrated voice/data
telecommunication system when it was placed in service in 1993.
Since Westinghouse had not included this lease it its accounts,
both the Completed Property, Plant and Equipment account and the
Accumulated Depreciation account had errors.

     Finally, we noted other internal control weaknesses that
could quantifiably affect the balances of the Completed Property,
Plant and Equipment account and the Accumulated Depreciation
account.

     Management concurred with some of the recommendations.
Management agreed to write off the Fast Flux Test Facility
building and to capitalize the telecommunication system.
Richland did not agree that Westinghouse had internal control
weaknesses; however, Richland stated that it would continue to
review and assure that any weaknesses in Westinghousems property
accounting procedures would be corrected. Richland agreed to
capitalize the occupied buildings that were constructed before a
project was canceled, but commented that it would need additional
time to close out the abandoned projects. Richland, however,
would not agree to write down surplus facilities until it
received further guidance from Departmental Headquarters.

     Part II of this report provides additional details
concerning the audit results and managementms comments.



                              PART II

                           AUDIT RESULTS

                   Westinghouse Hanford Company

1.   Plant and Capital Equipment

     Westinghousems contract with the Department incorporated DOE
Order 2200.6A, which prescribes the accounting policies for the
Departmentms plant and capital equipment. According to these
policies, capital equipment includes those items purchased,
constructed, or otherwise acquired that have an anticipated
service life of at least 2 years and that cost at least $5,000.
Capitalized assets are recorded on the Departmentms financial
records in the Completed Property, Plant and Equipment account
and are subject to depreciation. The cost of purchased assets
includes invoice cost (less discount), freight charges, and
modification and installation costs. The cost of capital assets
constructed by an integrated operating contractor includes the
costs of material, labor, construction equipment, and overheads.
A lease that transfers ownership of the asset to the Department
is to be capitalized at the lesser of the present value of the
lease payments or the fair market value of the asset at the
inception of the lease.

     Each accounting entity should record assets purchased with
plant and capital funds in the Construction Work-in-Progress
account. When it places the assets in service or beneficially
occupies them, the accounting entity should transfer the assets
from Construction Work-in-Progress to Completed Property, Plant
and Equipment. If an entity purchases assets with operating
funds, it records the assets directly in the Property, Plant and
Equipment account. When the entity abandons a project during
construction or plant and equipment becomes prematurely obsolete,
the entity is to write down the value in the appropriate
accounts.

Account Balances

     An uncapitalized lease caused a $37.2 million error in
Westinghousems Completed Property, Plant and Equipment account.
Specifically, Westinghouse acquired an integrated voice/data
telecommunications system through a lease-to-own agreement;
however, Westinghouse did not record this system in the account
because of an oversight. By not recording the system,
Westinghousems Accumulated Depreciation account was also
incorrect.

     Westinghousems Completed Property, Plant and Equipment
account and the Accumulated Depreciation account were in error by
$33.6 million and $21.2 million, respectively. When Westinghouse
retired the Fast Flux Test Facility, it did not remove the cost
and depreciation of one of the buildings. As a result, the error
in the net value of plant and equipment was about $12.4 million.

     In addition, Westinghouse incorrectly included $337.3
million in the Construction Work-in-Progress account. This was
the cost of three abandoned projects. The Department canceled
one of the projects after three buildings were completed and
occupied. According to Department policy, Westinghouse should
have capitalized the value of the occupied buildings in Completed
Property, Plant and Equipment and should have written off the
remaining costs of the three abandoned projects. Since
Westinghouse had not made these entries, the Construction Work-in-
Progress account, the Completed Property, Plant and Equipment
account, and the Accumulated Depreciation account were in error.

Internal Controls

     It is Westinghousems responsibility to design and implement
an internal control structure that provides assurance that
transactions are properly recorded and accounted for to permit
the preparation of reliable financial statements and to maintain
accountability over assets. However, the review of current year
additions to the Completed Property, Plant and Equipment account
and physical observations of assets identified internal control
weaknesses that could impact the carrying value of some of the
assets. Our review of 15 additions and physical observation of
15 assets disclosed the following conditions:

         Westinghouse included overhead in the costs of purchased
       assets, although Departmental policy stated that overhead costs
       were to be capitalized only for constructed assets.

         Westinghouse did not always use the Departmentms standard
       service lives when depreciating assets. Our sample disclosed
       three instances where Westinghouse used different service lives
       and in two instances Westinghouse used longer service lives. In
       the third instance Westinghouse used a shorter service life.

Because the conditions described were identified as part of a
judgmental sample, we could not statistically evaluate the impact
on the balances of the Completed Property, Plant and Equipment
and the Accumulated Depreciation accounts.


Recommendations

     We recommend that the Manager, Richland Operations Office,
direct Westinghouse Hanford Company to:
     1.   Capitalize the appropriate amount for the integrated
          voice/data telecommunication system in the Completed Property,
          Plant and Equipment account and record the applicable Accumulated
          Depreciation.

     2.   Remove the cost and associated depreciation of the
          previously retired Fast Flux Test Facility building from the
          Completed Property, Plant and Equipment account and the
          Accumulated Depreciation account.

     3.   Remove the abandoned projects from the Construction Work-in-
          Progress account by transferring the costs of occupied assets to
          the Completed Property, Plant and Equipment account and by
          writing off the remaining costs to abandoned projects.

     4.   Adjust the September 30, 1995, financial statements to
          accurately reflect Construction Work-in-Progress; Completed
          Property, Plant and Equipment; and Accumulated Depreciation.

     5.   Review and revise the internal control structure to ensure
          that amounts are recorded according to Department policy.

Management Comments

     Management concurred with Recommendations 1 and 2.
Westinghouse is currently reviewing the original lease and
subsequent modifications for the telecommunication system to
establish the appropriate amount to be capitalized. Target date
to accomplish this action was January 31, 1996. Westinghouse
also removed the remaining Fast Flux Test Facility assets from
the Completed Property, Plant and Equipment account and the
Accumulated Depreciation account in November 1995.

     Richland partially concurred with Recommendation 3.
Richland agreed that buildings constructed and occupied as part
of the Vitrification Plant project should be closed from
Construction Work-in-Progress to Completed Property, Plant and
Equipment. According to Richland, project costs associated with
each facility must be fully determined before this can be done.
Costs associated with partially completed facilities must be
handled in accordance with planned utilization or disposal.
Regarding the overstatement of balances in the Construction Work-
in-Progress account, Richland believes the Office of Inspector
General has not recognized the time required for orderly close-
out of abandoned projects.

     Management concurred with Recommendation 4 to the extent it
concurred with Recommendations 1-3.

     Richland nonconcurred with Recommendation 5. However,
Richland stated that it would continue its review and assure that
weaknesses in Westinghousems property accounting procedures were
corrected.

Auditor Comments
     Generally, managementms actions are responsive to the
recommendations. We believe, however, that Richland needs to
correct the Construction Work-in-Progress account as of September
30, 1995, to comply with the May 8, 1995, guidance from the
Office of Departmental Accounting and Financial Systems
Development. The guidance instructed field elements to remove
abandoned facilities from the financial records.

2.   Surplus Assets

     On September 25, 1995, the Departmentms Deputy Controller
issued a memorandum asking that the field offices and contractors
write down or write off assets not currently used to support the
Departmentms mission and for which there was no anticipated use.
This memorandum directed that surplus assets be written down by
November 30, 1995, so that the Fiscal Year 1995 Statement of
Financial Position could be adjusted. In addition, the
memorandum stated that although data supporting the 1995 Baseline
Environmental Management Report (BEMR) should be used to identify
surplus assets, the decision to write down a facility should not
turn on whether the facility was included in the BEMR data.

     Because Richland limited its efforts to identify surplus
assets to the BEMR supporting data, Westinghouse did not write
down or write off facilities. Richland deferred instructing
Westinghouse to adjust the accounts for two reasons. First, many
of the facilities in the BEMR supporting data were still in use
and would be required for continued operation. Second, Richland
stated that Departmental Headquarters intended to issue guidance
in March 1996 on how to account for facilities used to store,
treat, and dispose of legacy waste.

     The amount of write-down that should have been made for
assets not currently used and for which there is no anticipated
use is unknown. However, Hanfordms change in mission in 1989
from production to environmental restoration suggests that there
are numerous facilities that should have been written down.

Recommendations:

     We recommend that the Manager, Richland Operations Office,
direct Westinghouse Hanford Company to:

      1.   Identify excess facilities that no longer have designated
           mission requirements and remove them from the Completed Property,
           Plant and Equipment and Accumulated Depreciation accounts.

      2.   Adjust Completed Property, Plant and Equipment, and
           Accumulated Depreciation to properly report the balances as of
           September 30, 1995.

Management Comments

     Management partially concurred; however, it stated that any
write-downs would have to await the guidance to be issued by
Departmental Headquarters in March 1996.
Auditor Comments

     The write-down of facilities that are not currently used to
support the mission of the Department and for which there is no
anticipated future use need not await the March 1996 guidance.
That guidance will deal with the separate issue of writing down
legacy waste facilities.

     A write-down now would also be consistent with Statement of
Financial Accounting Standards No. 121, Accounting for the
Impairment of Long-Lived Assets And For Long-lived Assets To Be
Disposed Of. SFAS No. 121, which will be mandatory for Fiscal
Year 1997 financial statements, requires that assets be reviewed
for impairment when there is a significant change in the extent
or manner in which an asset is used. The standard states that
the impairment loss shall be measured as the amount by which the
carrying amount exceeds the fair value of the asset.
OTHER MATTERS

     During our review of 40 property transactions, we identified
six separate errors that raised concerns about Westinghouse's
management controls for capital assets. For example,
Westinghouse had correctly recorded an asset of $558,883 in the
proper account and subaccount. However, Westinghouse recorded
the wrong purchase order number and had recorded the cost in the
wrong property unit. In another instance the Completed Property,
Plant and Equipment account included the book value of an asset
that had been returned to the vendor; however, the account had no
cost for the replacement asset. Because these errors were
identified as part of a judgment sample, we could not
statistically evaluate the impact on the account balances.
However, we believe that, considering the small sample size and
the number of errors, management controls are not operating as
intended. We feel that this is an area that management should
address to insure that controls are operating as intended.

     Situations similar to those raised in the findings were
identified at other locations included in the overall audit, with
aggregate amounts considered material to the Departmentms
consolidated financial statement. These subjects, therefore,
were addressed in the audit report on the Departmentms
Consolidated Statement of Financial Position as of September 30,
1995 (Audit Report No. IG-FS-96-01).

                           Report No.   WR-FS-96-01

                     CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing
interest in improving the usefulness of its
products. We wish to make our reports as responsive
as possible to our customers' requirements, and
therefore ask that you consider sharing your
thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of
future reports. Please include answers to the
following questions if they are applicable to you:
1. What additional background information about
theselection, scheduling, scope, or procedures of
the audit or inspection would have been helpful to
the reader in understanding this report?

2. What additional information related to findings
and recommendations could have been included in this
report to assist management in implementing
corrective actions?

3. What format, stylistic, or organizational
changes might    have made this report's overall
message more clear to
the reader?

4. What additional actions could the Office of
Inspector General have taken on the issues discussed
in this report which would have been helpful?

Please include your name and telephone number so
that we may contact you should we have any questions
about your comments.

Name ____________________________
Date______________________

Telephone _______________________
Organization______________

When you have completed this form, you may telefax
it to the Office of Inspector General at (202)
586-0948, or you may mail it to:

            Office of Inspector General (IG-1)
            Department of Energy
Washington, D.C. 20585
            ATTN: Customer Relations

If you wish to discuss this report or your comments
with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202)
586-1924.
